                                                 , NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS
                                                                           I
                                                                           I

                                              CLOSEOUT MEMO:RANDUM

 Case Number: 1-09-11-0063                                                                   Page 1 of 1


                                                                           I

          We conducted an investigative review of an institution 1 that ha4 a single award2 for which NSF
          denied a no-cost extension. An initial review ofthe general ledger indicated charges 3 had possibly
          been incurred up to 13 months after the expiration date of the a~ard. Subsequent investigation,
          which included a thorough review of source documentation for all: ofthe relevant charges, revealed
          that all charges to'the award were incurred during the award period.
                                                                            I
                                                                               There were no indications of
          fraud or other wrongdoing.

          Accordingly, this investigation is closed.




NSF OIG Fonn 2 (11/02)
